IN THE SUPREME COURT OF THE UNITED STATES
No. AANDRE G. DEWBERRY, APPLICANT
v.
UNITED STATES OF AMERICA
APPLICATION FOR AN EXTENSION OF TIME
WITHIN WHICH TO FILE A PETITION FOR A WRIT OF CERTIORARI
TO THE UNITED STATES COURT OF APPEALS FOR THE EIGHTH CIRCUIT

Pursuant to Rules 13.5 and 30.2 of this Court, counsel for
Andre G. Dewberry respectfully requests a 45-day extension of time,
to and including February 14, 2020, within which to file a petition
for a writ of certiorari to review the judgment of the United
States Court of Appeals for the Eighth Circuit in this case.

The

United States Court of Appeals for the Eighth Circuit entered its
judgment on August 27,

2019.

App.,

infra,

at la.

That court
App. ,

denied a timely petition for rehearing on October 2, 2019.
infra, at 10a.

Unless extended, the time for filing a petition

for a writ of certiorari will expire on December 31, 2019.
jurisdiction

of

this

Court

would be

invoked

under

28

The

U.S.C.

§ 1254 (1) .
1.

Andre G. Dewberry was denied his Sixth Amendment right

to represent himself in court.

In February 2015, Mr. Dewberry was

indicted on one charge of being a felon in possession of a firearm
in violation of 18 U.S.C. §§ 922(g) (1) and 924(a) (2) .

Initially,

2

the federal magistrate judge allowed him to proceed pro se and
also appointed a public defender as standby counsel.

But during

a pretrial conference, after a tense back-and-forth, the district
court terminated Mr. Dewberry's pro se representation and reappointed the public defender as counsel.

Mr. Dewberry subsequently

pleaded guilty pursuant to a plea agreement that
months' imprisonment.
2.
3a.

included

60

App., infra, at 2a.

In March 2017, Mr. Dewberry appealed.

App., infra, at

The Eighth Circuit appointed him new counsel under the Crim-

inal Justice Act and ordered the parties to brief (1) whether Mr.
Dewberry's guilty plea waived his right to challenge the denial of
his Sixth Amendment right to self-representation and (2) whether
the district court's denial of Mr. Dewberry's self-representation
was justified by his conduct.

App., infra, at 4a.

On the second

question, the parties agreed the denial was not justified by conThe government conceded the point in its briefing, arguing

duct.

instead that Mr.

Dewberry's request for self-representation was

not sufficiently "unequivocal."
3.

App., infra, at 4a.

The Eighth Circuit denied Mr. Dewberry's appeal and af-

firmed his conviction.

App., infra, at 7a-8a.

The question of

whether Mr. Dewberry waived his challenge by pleading guilty was
a matter of first impression in the Eighth Circuit.

The majority

opinion noted the existence of a split among the courts of appeals
on this issue:

the Fourth, Sixth, Seventh, and Tenth Circuits all

hold that defendants in Mr. Dewberry's position waive their challenge; the Ninth Circuit holds that they do not.
5a.

App., infra, at

3

The court of appeals'

opinion sided with the majority ap­

proach, holding that "[a]lthough the district court may have vio­
lated Dewberry's right to self-representation, Dewberry is barred
from bringing his appeal on this record."
4.

App., infra, at 7a-8a.

Judge Kelly, concurring in the judgment, wrote that "the

record makes clear that the district court violated Dewberry's
right to self-representation when it reappointed counsel to represent him."

App., infra, at 8a.

She deemed that error "struc­

tural," but concluded that "structural errors can still be waived."
App., infra, at 9a.
5.

On October 2, 2019, the court of appeals denied a timely

petition for rehearing en banc.
6.

App., infra, at 10a.

Counsel for applicant respectfully requests a 45-day ex-

tension of time, to and including February 14, 2020, within which
to file a petition for a writ of certiorari.

The court of appeals'

decision in this case presents complex issues concerning the proper
interpretation of the Sixth Amendment. The undersigned counsel is
also in the process of retaining new counsel to assist with filing
a petition in this Court,

and new counsel will need additional

time to review the record and decision below.

Potential new coun­

sel also has additional briefing and argument obligations, both
before this Court and the courts of appeals between now and the
proposed due date, necessitating this request.

4
RESPECTFULLY SUBMITTED,

Swiecicki & Muskett, LLC
By:

/s/ Christopher S. Swiecicki

Christopher S. Swiecicki #295792
16100 Chesterfield Parkway W, Ste. 308
Chesterfield, MO 63017
636.778.0209 Office
314.341.5796 Cell
636.238.4358 Fax
Chris@SwiecickiLaw.com
Attorney for Applicant
November 26, 2019

